No. 20-

THE

'Supreme Court of the United States
PRIANKA BOSE, PETITIONER
v.

RHODES COLLEGE AND ROBERTO DE LA SALUD BEA

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,494 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 20, 2020.

Colin Casey Ho an
Wilson-Epes Printing Co., Inc.

